                                                OFFICE OF
                                                                                                  San Diego
JESUS RODRIGUEZ
ASSISTANT DISTRICT ATTORNEY     THE DISTRICT ATTORNEY                                         330 West Broadway
                                                                                             San Diego, CA 92101
                                         COUNTY OF SAN DIEGO                                    (619) 531-4040


                                          BONNIE M. DUMANIS                           http://www.SanDiegoDa.com
                                            DISTRICT ATTORNEY

   January 17, 2013                                           Contact: Steve Walker, (619) 531-3890
   For Immediate Release                                               Tanya Sierra, (619) 531-3315
                                                           En Español Jesse Navarro, (619) 531-3053


           Former Amtrak Employee Convicted of
         Insurance Fraud, Fails to Appear for Verdict
        Judge Issues No Bail Bench Warrant for Wanda Lee Ann Podgurski
   San Diego County District Attorney Bonnie Dumanis today announced that a jury convicted a
   former Amtrak employee, Wanda Lee Ann Podgurski, 60, of 29 felony counts including
   insurance fraud, perjury, grand theft from Amtrak Railroad Retirement Board and tax evasion
   after a two-month jury trial. The charges also included white collar enhancements involving
   taking more than $500,000.

   A no bail bench warrant was issued for Podgurski after she failed to appear in court for the
   verdict today. Anyone with information of her whereabouts, please call the U.S. Marshal
   Service at 619-557-6620. She was last living in the Manhattan Beach area of Los Angeles
   County.

   “Insurance fraud costs U.S. Consumers more than $80 billion a year,” DA Dumanis said. “This
   defendant’s flagrant disregard for the law and her employer increase costs for everyone.
   Deputy District Attorney Carol Buck did an excellent job presenting the facts of the case to
   the jury.”

   The defendant claimed she slipped and fell at home in August 2006 which caused her to be so severely
   disabled that she required an in-home caregiver to assist her with daily living. During the time she was
   allegedly disabled, Podgurski took several vacations including a 16-day tour to China in 2008 with her
   boyfriend. She also travelled to Dominican Republic, New York, Seattle, Boston, Fort Lauderdale and
   took road trips to Key West, Eureka, the Berkshires and other destinations.

   More than seven insurance carriers and a government agency were victims of the defendant's
   disability and homeowner scams. During the trial, about 70 witnesses testified including
   doctors, lawyers, insurance company investigators and contractors.

   Initially, Podgurski posted $500,000 property bond and was out of custody during the two-
   month trial. She is facing 33 years in prison.

                                                   1
